No. 19A337
In The

Supreme Court of the United States
o

PETRICE RICKS, CHASLIE LAWRENCE LEWIS CHRISTOPHER LAWRENCE,
FREDRICK LAWRENCE, GREGORY LAWRENCE, CHARLIE LAWRENCE JR.,
REGINALD LAWRENCE, SAMUEL LAWRENCE, CHARLETTE LAWRENCE
JONES, CYNTHIA LAWRENCE TOLBERT, GWENDOLYN LAWRENCE
HARRISON, CHERYL LAWRENCE HUGHES, CAROLYN LAWRENCE, JANIE
LAWRENCE, AND CHARLIE LAWRENCE Sr.
Petitioners,
v.
UNIVERSITY HOSPITAL, et al.,
Respondents,
On Appeal from the 11TH Circuit Court of Appeal, Southern District
Judge’s Order and Southern District Article I Magistrate’s Order :

DECLARATION FOR CERTIFICATE OF COMPLIANCE
It is hereby declared the foregoing Petitioners’ unbounded copy has been forwarded
complies to Supreme Court’s Clerk and no changes has been to the unbounded brief.
Petitioners further declares the brief complies with Supreme Court Rules word count
of 7.267

Drive
Snellville, Georgia 30078
(224) 339 - 3600
By depositing a copy of the same Certified U.S. Postal Mail on this date of
January13, 2020

/Stay's
“ _i :o

o

H

\

90
9

0

RECEIVED
JAN 22 2020

